<html>
<title> - CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 2)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-176]
 
         CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 2)

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 24, 2008

                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-261 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK MURPHY, Pennsylvania         TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, September 24, 2008, Considerations for an American 
  Grand Strategy (Part 2)........................................     1
                              ----------                              

                     WEDNESDAY, SEPTEMBER 24, 2008
         CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 2)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     1
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Keane, Gen. Jack, USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     2

                                APPENDIX

Prepared Statements:

    [There were no Prepared Statements submitted.]

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
         CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 2)

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                     Washington, DC, Wednesday, September 24, 2008.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Morning. Let me welcome you to the Armed 
Services Committee hearing on considerations for a grand 
strategy for the United States.
    Appearing before us today is General Jack Keane, United 
States Army (Ret.), Former Vice Chief of Staff of our Army. And 
General Keane, we welcome you, and today's hearing is actually 
a continuation of the hearing last week with Madeleine 
Albright.
    As I mentioned at that hearing, we always try to present 
multiple viewpoints for our members' consideration, and I 
pledge that this committee will do so at the earliest 
opportunity.
    So we want to get right to General Keane's testimony on 
this very busy day. And General, I must apologize for both Mr. 
Hunter and me. Our authorization bill is coming up in just a 
few minutes, and we must head to the floor. And I am sure that 
others will continue. It is my understanding Mr. Vic Snyder 
will be staying and presiding at that time.
    I ask that my complete opening statement be put into the 
record. Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Well, thank you, Mr. Chairman, and thank you 
for holding this hearing. We had Madeleine Albright last week, 
and I thought we had a superb hearing with the former 
secretary.
    And thank you for inviting General Keane to come and give 
his viewpoint today. And I think this is a great opportunity 
for the committee. Again, we apologize for congressional 
timing. It never fails. In fact, that is one reason we had you 
come, is because we knew the bill would be brought to the floor 
if we scheduled a hearing; so we did that.
    But thank you, General, and your thoughts--you were here 
last September just a few days before General Petraeus arrived 
to give his report to Congress. And you gave to the--as I 
recall, to the combined Armed Services and International 
Relations Committee your view of the situation in Iraq and how 
it was proceeding. And I think that was an excellent 
introduction to the hearing that we had the succeeding week 
when General Petraeus came and gave his report on the operation 
in Iraq.
    Hopefully, in this hearing, you can talk to us about new 
challenges. And the--especially I am interested in the 
challenge that we are seeing in Afghanistan, the emergence of 
this border strip that lies in Pakistan as the new sanctuary 
for the Taliban and al Qaeda that is now giving rise to cross-
border operations, which are taking on our Coalition forces in 
Afghanistan.
    I am also interested, of course, in how you see this 
Georgian situation, whether you see this as indicative of a 
pattern, of a new Soviet era in aggressive foreign policy, in 
trying to retake, if you will, part of the dissembled Soviet 
empire; how you see the America relationship with China and the 
growing Chinese military capability and how the United States 
should respond to that--a couple of the areas that I think are 
important, especially to members of this committee.
    So thank you for being with us this morning.
    And Mr. Chairman, I look forward to the testimony.
    And I am, again, so sorry that this coincides with our bill 
coming up on the floor. But I think we will have members who 
will, as we go back and forth from the floor, will be very 
interested in your testimony.
    So thank you, Mr. Chairman, and I look forward to the 
testimony.
    Dr. Snyder [presiding]. And it is not just any bill on the 
floor. It is the Duncan Hunter National Defense Authorization 
Act.
    Mr. Hunter. And that is not a bad----
    Dr. Snyder. Although, Duncan, having my locker right next 
to yours in the gym, if you do not clean out your locker, we 
are going to change the name.
    Mr. Hunter. If you want 138 golf shirts, I have got them.
    Dr. Snyder. General Keane, it is good to see you again. My 
understanding is you did not submit any kind of written 
statement. Is that correct?
    Yes, you go ahead. You are recognized, General Keane, for 
such time as you--I think your mic is not on.

STATEMENT OF GEN. JACK KEANE, USA (RET.), FORMER VICE CHIEF OF 
                        STAFF, U.S. ARMY

    General Keane. Thank you.
    Dr. Snyder. General Keane, go ahead.
    General Keane. Mr. Chairman, Mr. Ranking Minority, members 
of the committee, thank you for inviting me back to this 
distinguished committee where I have always enjoyed the 
dialogue and, even more, the positive relationship that we have 
had through the years.
    Now, I understand the Authorization Bill is going to be on 
the floor this morning, and I respect your attention to it. I 
would stand on my head if I could help you, so you have 
somebody very sympathetic here to your going down to vote on 
it.
    As I look at the world and the United States, as we begin 
the transition to a new Administration in 2009, and as we use 
this opportunity to re-examine our direction, our goals and our 
strategy, I recognize the worthiness of reaching for a grand 
strategy that served us so well during post-World War II in our 
struggle with the Soviet Union.
    Our containment strategy transcended different 
Administrations. While we argued over means and methods at 
times, the overall strategy remained until the collapse of the 
Soviet Union in 1991.
    In my view, this kind of grand strategy today is not 
particularly useful, for two reasons. One, we do not have a 
monolithic threat which subsumed all challenges. Quite the 
contrary, we are facing a multitude of challenges, from nuclear 
proliferation, radical Islam, instability in the Middle East 
and in some of the Arab Muslim world, the re-emergence of 
Russia as a potential adversary, the key relationships of India 
and China, global environment challenges, the multitude of 
problems in Africa, and a need for energy independence.
    I have difficulty envisioning an overall grand strategy 
that relates to all these challenges and, most importantly, 
would define our response. That is what containment did. It 
provided us focus against a clear and present danger and 
unequivocally defined our response.
    It is not that we could not conceive a grand strategy that 
encompasses our multifaceted challenges. We can. But it would, 
by necessity, be so overarching I think it would lose a sense 
of realism and practicality.
    The second reason, and most importantly, we are a nation at 
war. We do not just have threats as we did during the Cold War 
and in the 1990's. We have enemies, enemies who will us harm, 
enemies who kill and hurt us, enemies who work very hard to 
achieve their goals and weaken the United States.
    We have been at war for seven years, representing most of 
this decade. Our strategy should be focused on winning these 
wars and not on just ending these wars. Certainly, we should 
never take on a war we do not intend to win.
    The reality is the center of gravity of international 
strife and security which was resident in Europe has moved from 
Europe, where it was for most of the 20th century, to the East, 
from the Middle East to the Pacific Rim, including parts of 
North Africa. We fought two major wars in Europe during the 
first half of the 20th century and were involved in an 
ideological struggle in the latter half with Communism in the 
Soviet Union.
    As such, we fought two other wars outside of Europe in an 
attempt to contain Communism, as a part of that ideological 
struggle, in Korea and in Vietnam. We were overwhelmingly 
successful in providing stability and prosperity in Europe and 
winning the ideological struggle with Communism.
    Today, we are involved in another ideological struggle, 
this time with an enemy every bit as ambitious as the former 
Soviet Union but, in my view, more dangerous. Of course, this 
is the struggle with radical Islam, or Islamic extremists, who 
see the United States as their strategic enemy. Our strategy 
and commitment to defeat this enemy should be our highest 
priority now and in the future.
    The good news is we are succeeding. The al Qaeda remains 
the imminent threat. And while their attack on us on 9/11 was a 
tactical victory, it was a strategic failure because, not only 
did they lose their key sanctuary in Afghanistan within weeks 
of the attack, but there are two fledgling democracies in Iraq 
and in Afghanistan that are attempting to take hold in the 
heart of the Arab Muslim world, where the radicals want to 
establish their Islamic caliph. This is like a dagger to their 
heart and why they have fought back so fiercely.
    The al Qaeda remains dangerous, but they are a mere shadow 
of their former selves. Hiding in the mountains of Pakistan, 
scores of their leaders killed and captured, defeated in Iraq, 
every attack since 9/11 intended for the United States has been 
defeated, no longer able to reach out globally, they rely on 
surrogates in other countries who are motivated, but they are 
inexperienced, they are poorly trained, and they have a 
tendency to bungle the operation or fail. Moreover, some former 
members are openly criticizing the al Qaeda movement for a 
failed strategy in killing of the Muslims and in killing women 
and children.
    We must continue our vigilance against them. Our strategy 
of confrontation and staying on offense is working. And doing 
so with the willing cooperation of other nations is critical.
    Part of any strategy, in terms of the wars we are facing, 
has got to be winning the wars in Iraq and Afghanistan. In 
Iraq, we have two foreign enemies who engaged us. One is the al 
Qaeda, and the other is Iran.
    The al Qaeda, fortunately, have been operationally defeated 
by the Coalition forces and overwhelmingly rejected by the 
Sunni population. This is a major defeat for al Qaeda, and it 
is well known in the Arab Muslim world, particularly, that an 
Arab Muslim population had the courage to reject al Qaeda, 
despite the terror and barbaric killing.
    Much can be done to leverage this extraordinary success in 
continuing our struggle with radical Islam. The Iranians have 
been killing us since 1980 and have been killing troops in Iraq 
for almost five years.
    Brigadier General Sulamani, who is the Iranian Quds Force 
commander, a position he has held for 10 years, is in charge of 
this campaign, and he reports to one leader--the supreme leader 
in Iran. General Sulamani engineered and oversaw the defeat of 
the Israelis in Southern Lebanon.
    He is an experienced, savvy, and ruthless commander. 
However, he has suffered a major setback in Southern Iraq, 
where they were attempting to Lebanize that portion of Iraq.
    The Iranians want the United States defeated and out of 
Iraq. Therefore, they can get a foothold in southern Iraq and 
have significant influence over what they believe would be a 
weak central government in Iraq, which is aligned with Iran.
    The Iranians will not succeed because the Iraqis do not 
want that influence, and the Iraqi and Coalition Force presence 
is crucial as they try to return in the coming months.
    Given the defeat of the al Qaeda in Iraq, the major setback 
to the Iranians in the south, and the welcome reality that the 
Sunni insurgents are entering the political process versus 
using armed violence, we are on a path to achieving our 
objectives in Iraq. It is not simply about ending the war, but 
winning the war by accomplishing our objectives.
    Our struggle in Afghanistan, while frustrating because we 
had liberated the country from radical Islamists--the Taliban, 
who are now fighting to return to power--is a war that is very 
winnable. Much of the solution in Afghanistan has to be found 
in Pakistan, where the extremists are protected in Pakistani 
sanctuaries. This is more of a regional issue in attempting to 
resolve this conflict, which we do have the wherewithal to 
influence and the wherewithal to accomplish it.
    A part of any strategy is the crucial role of American 
leadership in the world. United States leadership was vital 
throughout the 20th century in the struggle against Nazism and 
Communism, and even in the 1990's, playing a defining role to 
lead a reluctant Europe to stop Milosevic's rampage in Southern 
Europe. United States leadership is equally important today in 
meeting the global challenges that we and the world face.
    It is a harsh reality that many European leaders cannot ask 
their people to sacrifice for their overall stability and 
security. As such, they turn their heads as the Iranians move 
steadily toward a nuclear weapon, while many European 
countries, openly and secretly, trade with the Iranians. They 
turn their heads as the Russians occupy a portion of Georgia, 
changing fundamentally the Russian relationship with Europe.
    Our leadership is vital to meeting these challenges and the 
others that I outlined earlier. Of course, we want to meet 
these challenges on a multilateral basis where we have common 
interests and where the stakes are so high. And we should do 
all we can to foster these critical relationships. But at 
times, we may have to act alone because it is in our national 
interest, and we should do so.
    My last point, Mr. Chairman, is that, as this committee 
looks at our military capabilities as a vital part of national 
security strategy, that we recognize some stark realities. Now, 
I know the committee is very familiar with this. I am just 
emphasizing it from my own perspective.
    And one is that we must re-cap the Air Force and the Navy, 
whose programs have been mortgaged somewhat to pay for the wars 
in Iraq and Afghanistan, and that our ground forces are much 
too small and, in my view, even the ramp-up to increase them in 
size is significantly insufficient to meet the challenges we 
have in the coming years.
    So in conclusion, one, I do not believe a grand strategy is 
appropriate when we are at war, and I am not convinced we could 
conceive one that subsumes our challenges and, most 
importantly, would adequately define our response. And number 
two, U.S. leadership is crucial to meeting the global 
challenges that we and the world face.
    Fortunately, we have not lost our moral compass nor the 
courage of our people in their willingness to sacrifice to 
defeat our enemies, to challenge the evil in the world, and to 
face many of the problems and challenges ahead.
    Thank you, and I look forward to your questions.
    Dr. Snyder. Thank you, General Keane.
    Mrs. Boyda for five minutes.
    Mrs. Boyda. Thank you very much, Mr. Chairman.
    And General Keane, thank you so much for coming again 
today. We really appreciate your testimony, and it is good to 
see you.
    I wanted to just ask you a little bit more about the whole 
Pakistan-Afghanistan, the Durand line, the so-called border, or 
lack thereof, however you want to characterize it. I just was 
able to come back from a trip there the day after Zardari got 
elected, right after the something-whatever happened in the--
with the Waziristan provinces there.
    So my question is General Hayden and Admiral Mullen have 
said we can expect a 9/11-type attack along that Pakistan-
Afghanistan border. That was, what, six, eight months ago now. 
Do you still see that threat as that same level of threat, or 
are we getting it under control?
    And my other question is: What can we expect from Pakistan? 
They are in a real bind. They are literally between that rock 
and a hard place. What can we expect from Pakistan, and how do 
we work with them in any way possible so that they are doing 
what they need for their people and we are working together?
    General Keane. Sure. Thank you, Madam Congresswoman.
    Certainly, we do have significant issues dealing with the 
al Qaeda sanctuary and a Taliban sanctuary that is existing in 
Pakistan. And remember, we drove the al Qaeda out of 
Afghanistan weeks after 9/11, and that is where they have fled.
    In the ensuing years, we have killed and captured multiple 
leaders of that organization with the assistance of the 
Pakistanis. Where we have failed is we have not gone into the 
sanctuary area and defeated the al Qaeda in that area.
    The Pakistanis do not want us to violate their sovereignty 
and do it unilaterally. We have made a decision to cooperate 
with the Pakistanis and not do it unilaterally without their 
permission.
    The basic reason for that, and it goes all the way back to 
the argument we had over this in the national security arena in 
2001--the basic premise for that rationale is not to act 
unilaterally as it is the thought that it would destabilize 
Pakistan to the point that the radical could seize power and, 
of course, then they would have nuclear weapons.
    That argument has won the day in this town since 2001, so 
that is a backdrop for part of our discussion. So the 
Administration has made a decision that, if we are going to 
eliminate that sanctuary that the al Qaeda has there, it can 
only be done with the cooperation of the Pakistanis.
    Mrs. Boyda. Do you agree with that premise?
    General Keane. No, I do not. I argued against that and lost 
that--I have never accepted the belief that the radicals, as a 
result of our response to a 9/11 attack on this country, could 
possibly destabilize Pakistan and take over and gain those 
nuclear weapons. I have never bought the argument.
    But anyway, we are where we are----
    Mrs. Boyda. May I ask, seven years later, is that premise--
has that changed in seven--if we had done that initially or 
seven years later, do we still have those same options?
    General Keane. Well, I think the issue, in my mind, is 
still on the table.
    And the second issue with the Pakistanis, then, is their 
own preparedness to deal with this. Musharraf made a couple of 
feeble attempts to go up into that area, mostly at our urging. 
His military did not have the stomach for it, and they got hit 
pretty good.
    Second, what is not obvious to people is that, much like 
our army, when we invaded Iraq in 2003, was prepared and 
trained for conventional operations--and in our case, we do 
that better than anybody in the world. But we were ill-prepared 
for unconventional or irregular war, which is what we have been 
involved in for the last five years. Now, we have since solved 
that issue. We are very good at it.
    But the Pakistanis' military is not prepared for that kind 
of operation, and it has been very challenging to get their 
attention because their focus still is India, that it is, as 
you know, emotional, psychological----
    Mrs. Boyda. Historical.
    General Keane [continuing]. Center of gravity for them, and 
it preoccupies their intelligence apparatus, and it preoccupies 
their training and education and their military preparedness.
    So we have been unsuccessful in getting them to operate at 
a much lower level in terms of irregular unconventional 
warfare. That has got to change. We have got to help the 
Pakistanis do this so they can be effective.
    And the other thing with Musharraf, particularly dealing 
with the Taliban sanctuary, is he believed and had doubts about 
our stick-to-it-iveness in Afghanistan, and I think with some 
justification. He was not certain that the U.S. would stay the 
course, that, in time, we would run out of patience based on it 
taking too long, too many casualties, and we start looking at 
other issues.
    As a result of that, he hedged his bet, and he worked with 
us, and he also assisted them through his Intelligence Service 
because he believed, in the long run, he may be dealing with a 
Taliban regime, and it was in his interest to have some kind of 
relationship, very similar to the relationship he had when the 
Taliban was in power in the past and his Intelligence Service 
was assisting them.
    So that is part of the backdrop that adds to the complexity 
of this problem. Now, do we have cause for hope with this new 
Administration? I think we do. Certainly, the new President is 
not the same person that his wife, was in terms of her moral 
courage and physical courage, and she had already thrown down 
the gauntlet in terms of what she was going to do about the 
radicals. Make no mistake about it: She was going after them. 
Of course, that is why they killed her.
    So I think we have an opportunity here to work with the 
Pakistanis, to assist their military, to help train their 
military if necessary, to conduct joint operations with them, 
to take down the al Qaeda sanctuary, and also to eliminate the 
Taliban sanctuary, certainly, that is sitting on Afghan soil.
    We will not be able to defeat the Taliban in Afghanistan 
unless we eliminate the sanctuary. All we will do is throw more 
resources at it and continuously protract the problem if you 
give the enemy a sanctuary where they can operate with impunity 
out of to conduct their operations and return to prepare for 
next and future operations.
    So those are some of the challenges that we have. But I 
definitely, in my own mind, believe the situation in 
Afghanistan is not as challenging as the crisis we had in Iraq 
in 2006, and we certainly would never want it to get to that 
crisis. Two, it is achievable in terms of making certain that 
the Taliban do not get back in power. We cannot do it without 
the Pakistanis, and it is much more of a regional problem than 
Iraq was, in the sense that, to influence the Pakistanis and to 
assist with the problem in Afghanistan, we have got to solicit 
the cooperation of the other countries in the region and start 
to take a regional approach to this, because it is not in their 
interest to have that kind of government in power in 
Afghanistan.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mrs. Boyda. Thank you.
    Dr. Snyder. And I think I will start doing the gentle tap 
at the end of the five minutes so we will give everybody the 
opportunity to----
    Mr. Bartlett. Thank you very much, sir.
    We are here to talk about a grand strategy for America, and 
I am very concerned that we are permitting the tyranny of the 
urgent to sweep some really important things off the table. The 
urgent things, of course, are the Iraq-Afghan war and the 
threat of a market meltdown. And so we are giving essentially 
no attention to things that I think will be enormously more 
important in the future.
    The first of those is energy. As you may know, in 1956, it 
was predicted that the United States would reach its maximum 
oil production in 1970. Right on target, M. King Hubbert was 
right. We did reach our maximum oil production, and now we 
produce half of what we produced then.
    M. King Hubbert predicted in 1979 that the world would 
reach its maximum oil production about now. Apparently, we 
have. Both the Energy Information Administration (EIA) and the 
International Energy Agency (IEA)--both have world's oil 
production flat for the last 36 months.
    Sir, a very insightful speech. Perhaps the most insightful 
speech of the last century was given by Hyman Rickover on the 
14th day of May, I think it was, to a group of physicians in 
St. Paul, Minnesota 51 years ago.
    In that, he noted that this Golden Age of oil would be but 
a blip in the 8,000-years recorded history of man, and he said 
that he did not know how long it would last. Now we know, 
pretty much, but he said, no matter how long it lasted, the 
only important thing was that, the longer it lasted, the more 
time would we have to plan for an orderly transition to 
alternative fuel.
    Sir, we have done none of that, with 51 years' warning from 
Hyman Rickover. And we now have known for 28 years, known with 
absolute certainly because, in 1980, looking back to 1970, M. 
King Hubbert was right. So we have known for 28 years we were 
going to be here today, and we have done nothing.
    A second thing that I am very much concerned about is 
electromagnetic pulse (EMP). Our military is not prepared, sir. 
We are not hardened to anywhere near the degree we need to be 
hardened, and our national infrastructure will come crashing 
down, and we are paying essentially no attention to this. It 
could end life as we know it in our country.
    And the third thing that really concerns me, when I worked 
for IBM from 1967 to 1975, and we were very much concerned, we 
in IBM and we in our country, that, unless we did something, 
the Japanese were going to take over the preeminent position in 
computers simply because, every year, they were producing more, 
and at least as good, scientists, mathematicians, engineers as 
we. Now China this year will graduate six times as many 
engineers as we graduate, and I am concerned, sir, about our 
long-term future.
    And these three things--we are giving essentially no 
attention to these three things. Give me some attention to 
energy, but the wrong attention. ``Drill, baby, drill'' will 
not solve the problem, and not drilling will not solve the 
problem, either. What do we have to do so that we can prevent 
the urgent from pushing the really important things off the 
table?
    General Keane. Well, I agree with most of what you just 
said, frankly. I just do not know how you make that a grand 
strategy, and given the wars that we are facing, I understand 
what you are saying about the tyranny of the urgent. But in my 
own view on energy, I thought energy would be a major feature 
of this previous Administration these last eight years in 
moving us toward energy independence, because energy 
independence, which I mentioned in my remarks, is a national 
security issue, front and center. As a result of our 
dependence, and therefore our economic dependence in that part 
of the world where we are getting oil from in the Middle East, 
it affects a lot of the relationships we have and the decisions 
that we make.
    And certainly, we have to move toward alternative fuels as 
well. And I think most military professionals like myself would 
feel very strongly about moving to energy independence in this 
country as a major feature of a national security strategy. So 
I completely agree with you.
    Electro Magnetic Pulse is a vulnerability that we have, 
make no mistake about it. And I am not privy to know now what 
we are doing in the classified world to assist with that 
because, while I am on the Defense Policy Board, we have had no 
briefings on it. So I do not know what we are doing. I know 
when I was wearing a uniform, we were not doing much. So if we 
have done much in the intervening years, I cannot comment.
    Cyber-warfare, though, I would add to your list. It is 
something that the Chinese look at as an asymmetric strategy, 
as opposed to building blue-water Navy and Army that would 
rival the United States or an Air Force that would rival the 
air power that we have.
    I think they have made--while they will do some of that, 
most of what they are attempting to do is asymmetric and 
investment in cyber-warfare, which they are involved in today, 
as we are painfully aware of. And I would add that to the list 
of--most of all of that is obviously in the highly classified 
world, and it is something we have made a lot of progress on, 
and I am sure the committee has some familiarity with it.
    In terms of China, myself and three other retired four-
stars went to China early this year to sit down with four--
turned out five--Chinese four-stars to talk about improving our 
military relations with each other so we did not create the 
enemy that we are trying to avoid here, by letting these 
relationships drift apart and miscalculate and not understand 
each other's aspirations and goals.
    And now as military professionals, we are not naive about 
military capabilities. But, in the same time, we believe that 
the most important relationship the United States will have in 
the 21st century is with China.
    And we should get this relationship right. We should not 
foul this thing up and let other issues overtake it. And like 
any relationship, you have to build it.
    Now one of the things we brought back and talked to 
Secretary Gates and others about is that we have got to at 
least start on the military side, following on the coattails of 
our business leaders who are out in front of us and start 
building relationships in the officer corps of the Chinese 
military and the People's Liberation Army (PLA) at different 
levels, not just among the generals, but in the future 
generations. And bring them to our schools, and let us go to 
some of theirs and do some joint training together, and open 
this thing up a lot more than what it really is. So I think our 
relationship with China is crucial to us. We have to keep our 
eyes open here in terms of what they are doing.
    We do not know what their intent is. We know what their 
stated intent is. But at the same time, the relationship we can 
improve on and hopefully build trust.
    Even though there is different government systems operating 
here, the needs of the Chinese people are staggering by 
comparison to the issues that our people are dealing with, and 
there is much help that they need in doing that.
    Dr. Snyder. Mrs. Gillibrand for five minutes.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    And thank you, General, for being here.
    I want to follow up with what my colleague started on, 
particularly some of the urgent needs for how we transform our 
military to address the real risks of today. And in particular, 
I am concerned about cyber-terrorism. Do you have any 
recommendations to our committee about what you would like the 
military to look like over the next 10 years to be a more 
responsive force?
    And in particular, we have had a number of hearings about 
the importance of having certain civil skills, having the 
Provincial Reconstruction Teams (PRTs) be part of some unit of 
the armed services. And I want your thoughts on whether that 
flexibility, that ability to do the reconstruction, to do 
peacekeeping in a different way, is something that the military 
should have a role in. And if so, how do we transform our 
forces to have those capabilities ready available?
    General Keane. Yes. Well, thank you for the question.
    I think these wars that we have been involved in since 9/
11, if you would step away from the controversy surrounding how 
the war in Iraq got started, should we or should not we have, 
we have to take away some vital lessons that should influence 
and inform us about the future of our military structure, its 
capabilities.
    In the first instance, post-conflict operations are every 
bit as important as the conflict itself, and we are painfully 
aware of that. And therefore, we have to have structures in our 
military and capabilities there to deal with that better than 
what we have now in terms of civil military operations, the 
kinds of engineers that we need, more military police, better 
intelligence apparatus.
    And second, the enemy that we are facing in the world today 
that surrounds this ideological struggle that we have with 
radical Islam, they very carefully have selected the form of 
warfare. I mean, Saddam Hussein now, given the fact that we 
have interrogated his generals and we have lots of other 
documents to substantiate it, we know now that Saddam Hussein 
was in the planning phase of this form of warfare for two 
years, that he was in the execution phase for six months prior 
to our invasion.
    See, he never intended to militarily defend his regime. He 
always intended to fight us using unconventional tactics and 
irregular warfare, believing that he could really take his 
country back, knowing that we would take it from him.
    So he selected that form of warfare even though he had an 
organized army. Why did he do that? He selected it because he 
knows that we are vulnerable to it, that it disarms our 
technological advantage and that, if you protract a war with 
America, given its impatience about results, you have a chance 
to succeed.
    Now what he does not know is 75 to 80 percent of these 
insurgencies fail, and it is very high for urban insurgency, 
which he was conducting. And he has failed, as we all know now.
    But our enemies will continue to select that form of 
warfare because of our vulnerabilities to it. If we had to 
fight the Iranians--let us assume that, for argument's sake--
and when I was a corps commander and a division commander in 
the Army, we would run scenarios against Iran since 1979. So 
most of us are all very familiar what it takes to defeat the 
Iranian military, and we would be able to defeat it. And I am 
not suggesting we go to war with Iran. We do not want to do 
that. But the real war would start after this because they 
would use this form of warfare to come after us.
    So in our future kit bag of the United States military, 
which has always been optimized for high-end warfare, we have 
to have capabilities now in there for low-end of war fighting. 
We have to have a more balanced force.
    Mrs. Gillibrand. And what is your recommendation for how we 
get there?
    General Keane. Well, we have to continue the education and 
training of our officers that we have now on the low end as 
well as on the high end. The ground forces are the prevailing 
issue here. The air and naval forces, by nature, will stay 
high-end, and you can use a very small percentage of them on 
the low end.
    But the ground forces, the challenge for them is they have 
to be able to do the high-end warfare that they have always 
been very good at, but now also be able to do this with a 
balanced force. The only way you can get there, the only way to 
get there is you have to increase the size of the ground force 
to do it, and the ramp that we have right now is inadequate to 
get us there.
    Why do I say that? You need to have--if you analyze this 
problem, we need about 25 brigades to be able to sustain 
ourselves in some kind of conflict. We are using about 17 of 
them now, but, on average, we need about 25.
    If you want to have 25 brigades that you can put into a 
conflict--and, regardless, of the years involved, you need 
somewhere between 68 to 75 brigades to sustain that level of 
activity and also be ready for another war or another form of 
war either on the high end or the low end--right now, we cannot 
do that. We have all our eggs in one basket.
    We are fighting two wars, both on the low end, and we are 
not prepared to fight high-end with ground forces. They are not 
doing any training because they are completely focused on being 
in the rotation, on the scene in Afghanistan or Iraq, returning 
home and preparing to go back. And there is no time to be able 
to do the high-end skills, and all those skills are atrophying.
    So the major issue is size of force, followed by the 
structure and then building the capabilities in the force to do 
both forms of warfare. What we did in the past, we can no 
longer do. What we did in the past--and I was part of it, and I 
supported it, and I was wrong--and that is just build the high-
end ground force and tell yourself that you can do low-end 
warfare as a pickup team when it comes your way. Does not work.
    Dr. Snyder. Mr. Wilson for five minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And General Keane, thank you so much for being here today.
    Last September, in the midst of doom and gloom, you were a 
voice of positive prognosis. Indeed, your visions came through, 
and I just appreciate your service very much.
    I appreciate your military service, but I particularly 
appreciate your vision for victory, understanding that we must 
defeat the terrorists overseas to protect American families at 
home, to protect American troops in the future. I just 
appreciate this as a veteran myself, and, indeed, I appreciate 
it as a parent, and I know that other parents feel the same 
way.
    I have got four sons serving in the military, two who have 
served in Iraq, and so I want the safest world we can have. And 
the best way to do that is to defeat the terrorists overseas. 
And I appreciate your comments again this morning, too. It is 
just always positive to hear from you.
    As we look ahead for a grand strategy, and it is not in 
capital letters, so it is sort of a general view, as you 
indicated when you initially testified, should we be 
emphasizing the existing alliances and international 
partnerships we have? But you also indicated that there may be 
conditions where we need to proceed on our own. Can you tell us 
what you see for the future?
    General Keane. Well, I think our alliances and partnerships 
should be re-examined in the face of current realities and 
analyze them. And probably the most significant one that we 
need to take a look at is the North Atlantic Treaty 
Organization (NATO) itself.
    I mean, it certainly has served us well through the 20th 
century in the Cold War struggle that we had with the Soviet 
Union, but, also, NATO is representative of many European 
countries, in my judgment, who have lost their will, and it is 
reflected in NATO as well.
    The deployment of NATO forces to Afghanistan and the 
problem that that has caused the on-scene commander is pretty 
significant, because we have forces there that, while they are 
there, they are forbidden from combat operations, even though 
this is a war and they are a military.
    I mean, they are not the Red Cross. They are not a non-
government agency. They are a military force, but they are 
forbidden from combat operations. And others are there, but 
they do not want them to go into areas that are too 
challenging, in terms of combat operations. So if you are the 
commander of that force, the complexity that that presents to 
you is staggering.
    So what is the cost benefit of NATO in the future? I mean, 
this is a tough issue for us because we have been a part of it 
so long, and nobody wants to walk away from that. I am not 
suggesting it, but I am suggesting we look at it and analyze it 
and ask ourselves: What is wrong with this organization?
    We are a part of it. We have a right to speak. We have a 
U.S. leader who is at the top of the military aspect of it. And 
I think this organization needs to re-examine itself, in terms 
of what its role is.
    So these alliances that you mentioned should be looked at 
in the future in terms of what their role is and what our 
participation is in it. We do not want to be dismissive of 
them, and I am not suggesting that we walk out on a world stage 
by ourselves and we act unilaterally.
    Quite the contrary. I do believe strongly that we should 
seek multilateral participation to challenge the complexity of 
this world, in terms of the enemies and adversaries that we 
have and the evil that is in the world, and we should do 
everything we can.
    But, I mean, I am also suggesting that, at times when we 
have countries of the unwilling, despite the obvious need, then 
we have to act in the interest of the American people to 
protect them, even though, while doing that, we are also going 
to protect others, obviously, who are unwilling. And we must 
have the courage to do it.
    Mr. Wilson. As we conclude, as you have the opportunity to 
travel to different countries--I just returned from visiting 
the joint U.S.-Bulgarian base at Novo Selo, the U.S.-Romanian 
base at Constanta--you will be so encouraged to see people who 
understand that it was the American military sacrifices and 
efforts that made it possible for them now to live in free-
market democracies after living 50 years under totalitarianism.
    So people there are positive, and, indeed, I saw the troops 
and visited with the Bulgarian troops in Afghanistan. My son 
served with Bulgarian troops in Iraq. And so thank you again 
for your service.
    Dr. Snyder. Mr. McIntyre for five minutes.
    Mr. McIntyre. Thank you so much.
    General, it is great to have you here. I am sure you still 
remember--we fondly do--my wife and I and my two sons on 
January the 2nd of 1997, the day we came to visit you at Ft. 
Bragg and delayed moving up here to start a new congressional 
career on January the 3rd.
    And thank you for standing tall and standing strong then, 
as we spent time together for that full day at Ft. Bragg, and 
thank you for everything you have done throughout your career 
and in the 12 years since then that we spent that time 
together.
    And I want to ask you a question. As we look to the role 
that Congress plays in the development of grand strategy and 
its execution, what specifically you think Congress's role 
should be in the development of that and how our policy process 
can support the execution of a grand strategy. I do not know if 
you have got some bullet points or ways that you could say, ``I 
will tell you like it is, and here is really what Congress can 
do to help execute this,'' so as we look ahead now with a new 
Administration, whoever that might be, we can be in a position 
to do what we ought to be doing.
    General Keane. Well, I clearly believe that the Congress 
plays a role here, not just in its oversight but also--I mean, 
it is a contemplative body, and there is collective wisdom 
here. And I think that you have a right to be in the arena, so 
to speak, in helping to development strategy.
    It clearly is the responsibility of the executive branch, 
make no mistake about it. But the complexity of this, the 
challenge of it, I think there is a role for the Congress to 
play in that.
    The hearings that you are doing and the people that you 
bring in here is usually thoughtful, and you normally cast a 
much wider net than the executive branch does in the 
formulation of this, which is usually done against deadlines 
and done with the team that is in residence.
    So I think your opinions are valuable. I found that to be--
that the case when I was in uniform, and I am not saying that 
to patronize anybody here. It is just a fact.
    You force leaders in the executive branch, at times, to 
think about things that they had not thought about, and it does 
not always have to be in a committee hearing to do that. There 
are other ways and other forums to do it in a less public way, 
so that we can do some teaming and some formulation together.
    So I think there is a role to play here. I think the 
executive branch clearly has the lead here. And these are tough 
issues, and eventually, when it gets down to it, choices. We 
are eventually going to make choices in terms of what we 
believe our priorities are and the resources that we will apply 
against those priorities.
    And this body certainly has every right, speaking for the 
American people, to challenge those choices that we are going 
to make, as you have done in the past. And it is good to see 
you again, Mr. Congressman.
    Dr. Snyder. Mr. LoBiondo for five minutes.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    General, thank you for being here.
    General, two years ago, the whole focus was on Iraq and 
Afghanistan, seemed relatively stable. Seems like things have 
changed dramatically.
    And I am curious of what you think of our perceived 
strategy in Afghanistan, what we need to do to get stabilized, 
and how that relates to how we are looking at Pakistan and the 
increasing challenge that we know we are going to be facing. 
And I have heard others say, and I think I believe, that we are 
never going to fix Pakistan until we have a clear strategy 
for--never going to fix Afghanistan unless we have a clear 
strategy for dealing with Pakistan.
    And it appears that our strategy might be changing a little 
bit. But I am curious about your views on this.
    General Keane. Yes. Thank you. I answered partly that 
question before, but I would be glad to do it again.
    Let me just say at the outset, we have made tremendous 
progress in Iraq, and we should feel good about that progress. 
And what General Petraeus and his leaders have been able to 
achieve is nothing short of remarkable, particularly in the 
timeframe that they accomplished it. But it is not over, and 
there are challenges ahead.
    And while it will not get the headlines, because the level 
of violence is now at such a low level that most Iraqis are 
living normal lives, there still is a danger and a threat there 
that we have to manage our way through over the next two to 
three years. And we will, but we have to keep the troop 
presence there at some appropriate levels to deal with that, so 
we can cement the gains that we have made.
    And in Afghanistan, Afghanistan has--while there is 
challenge there, it is also very winnable, what we are doing in 
Afghanistan. It does not rise to the crisis-like problem we had 
in Iraq with the enormous complexity of fighting probably the 
most formidable insurgency we have ever faced in the West, a 
former regime element operating as an insurgency, and then 
aided by two foreign interventions, the al Qaeda and also the 
Iranians, which added a degree of complexity to that that made 
it much more challenging.
    Though Afghanistan has its own set of complexities, and 
most notable is the fact of the sanctuaries, as you are 
familiar with, that are in Pakistan. And so I think it is 
correct that the road to success in Afghanistan has to pass 
through Pakistan. We cannot keep the sanctuaries in Pakistan 
and be successful in Afghanistan. It will not work.
    So the sanctuary that the Afghans have in Pakistan has got 
to go, and we have to do that with the cooperation of the 
Pakistanis, or they have to give us the authority to eliminate 
it ourselves, which obviously we could do rather easily.
    Second, in Afghanistan, we obviously need more resources. I 
mean, that has been a secondary effort with the primary effort 
in Iraq. And that has been for good reason. But now you will 
see a transition of resources from the levels of troop levels 
in Iraq going down and the troop levels in Afghanistan going 
up. And that should happen.
    And we are fortunate that we will be able to do that. And 
we are only able to do that because of the success that we have 
enjoyed in Iraq.
    So Afghanistan needs more forces, to be sure. As we 
outlined, there is a lot of problems with some of the European 
forces. Some are helping significantly, but there is a shortage 
of forces there. And the increase in forces will be largely 
U.S., and that is the reality of it. So we need that as well.
    But we need the cooperation of the Pakistani government, 
and we also need the cooperation of other governments in the 
region. We cannot look at Afghanistan just as an Afghanistan-
Pakistan problem. We should look at it as a regional issue, 
bring the regional players to bear in terms of what our 
collective objectives are in Afghanistan. It is not in any of 
those regional players' interest to have a radical Islamic 
regime in charge in Afghanistan.
    And if that is the case, then start from that point, in 
terms of common interest and goals, and let us work toward 
common solutions. I think this is doable, and we should--with 
the new Administration in Pakistan, we do not know that much 
about it, but we will find out in the ensuing months. And 
hopefully, we can work toward common goals in cooperation with 
them.
    Dr. Snyder. Dr. Gingrey for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you.
    General Keane, thank you for being with us this morning, 
and your voice of reason gives this member great comfort.
    I wanted to get back to the subject of the hearing in 
regard to the grand strategy issue. And of course, while we are 
wanting to develop a grand strategy and talking about it here, 
other major countries, they have their own grand strategy, and 
I am talking mainly about countries like China and Russia, Iran 
of course.
    And I am concerned with what their grand strategy has to do 
with ours, adversely affects ours, how we can implement our 
grand strategy, in light of theirs. And things like right now 
what Russia is doing off the coast of Venezuela in joint 
military exercises with them. I am real curious to know how you 
feel we can develop a grand strategy in light of what is going 
on in the rest of the world.
    And then the other thing, if you would address, do you 
think it is possible in this current partisan political 
environment--of course, maybe it will get less so after the 
Presidential elections--but we are always going to be living 
with that. Is it possible, politically, for us to come together 
as Republicans and Democrats and agree on a grand strategy, or 
is there room for multiple grand strategies?
    General Keane. Well, as I said in my opening remarks, given 
the absence of a monolithic threat that we had when we truly 
had a grand strategy called ``containment'' for the second half 
of the 20th century, and that strategy served us well. It is 
hard to envision one that would encompass the complexity of the 
world that we are dealing with, or you could come up, 
certainly, with one. We can conceptualize something. But the 
real issue would be in the choices we are making underneath 
that umbrella, I think, because we do not have resources to do 
all of the things that this world is facing. So it is always a 
question of priorities and choices that we would have to make.
    And as a result of that, we have a tendency, then, to look 
at the threats that are the most dangerous to us. And as I 
suggested, the fact that we are fighting wars and we are trying 
to formulate a strategy, part of that strategy has to be we 
have to win the wars we are fighting.
    We cannot put the wars over there and pretend that they are 
not happening and develop some grand strategy away from that. I 
mean, this is a country that is at war. And sometimes I think, 
because the form and nature of the war is different than a 
clash of armies, then somehow we sort of denigrate it in how--
that it may not be as important or as significant as a more 
typical 20th century type of war.
    And nothing could be further from the truth, because the 
enemy has selected this form of warfare because of our 
vulnerabilities. The consequences of losing in Iraq, as an 
example, they selected the form of warfare, were dramatic in 
terms of regional instability, Iranian hegemony, al Qaeda 
sanctuary, and increased security vulnerability to the United 
States. That is a significant ensemble of consequences that are 
dire if that happened, so we could not afford to lose it for 
those reasons.
    Dr. Gingrey. Well, General, if I can interrupt just for a 
second, I agree with you. I agree with you completely.
    And when we were talking about this, when we were talking 
about the surge, and that debate raged on and on, this idea of, 
well, we--from a personnel perspective and from the perspective 
of a reset, we need to bring all these troops home to get ready 
for the next grand war. It never made any sense to me.
    I mean, it was always in my mind, and I think you just said 
it, a war is a war is a war. You do not lose one to get ready 
for another one, but--you go ahead. Excuse me. I just wanted to 
interject that.
    General Keane. Yes. And certainly, other countries have 
national interests and strategies that they are pursuing, most 
of which they are not going to share with us, particularly 
these adversarial relationship that we have, but we can judge 
them by their actions.
    And I think it is right for us to prioritize our 
relationship with these countries in terms of what that 
relationship is going to be, what the character of that is. Is 
it an adversarial relationship or potentially adversarial?
    Certainly, what the Russians are about in Europe has got to 
give us a lot of pause for concern. It appears, by virtue of 
what they are doing, that Putin has a strategic view that may 
be similar to the view that his predecessors had with the 
Soviet Union on a smaller scale.
    Dr. Snyder. Mr. Ortiz for five minutes.
    Mr. Ortiz. Thank you, Mr. Chairman.
    General, good to see you, sir. We want to thank you for 
appearing before our committee and thank you for your service 
in the military.
    As a former military officer, other than military 
instruments of power, what sort of power tools, such as 
diplomacy and non-military elements of national power, would 
you recommend be incorporated in the incoming Administration's 
grand strategy, and where should those efforts be focused?
    Because I feel, and this is my personal opinion, that we 
have not done enough diplomatic work or communications with the 
countries around Afghanistan and Iraq. And maybe you can give 
us a little input as to what you think we should do there.
    General Keane. Well, I certainly agree with you. When you 
look at that region of the world, as I was trying to suggest 
that the center of gravity for international strife and 
security is in that region of the world, and we know we have an 
ideological struggle there, in winning this ideological war, 
just as we won the ideological war with the Soviet Union, I 
really believe it has more to do with what you are suggesting 
than it has to do with military power.
    To defeat that radical Islamic movement is more about our 
ideas and our values of this country. It is more about 
capitalism and democracy. It is more about changing the 
conditions that the moderates are having to live and contend 
with in the many countries in the region. It is considerably 
less about the use of military force.
    The one thing that I have come to conclude since 9/11 and 
the steep learning curve I think that all of us have been on 
since, if we are honest about it, in learning about radical 
Islam and what it is trying to accomplish is, is that killing 
them and capturing them is not enough. That will not defeat 
them. They just continue to regenerate because of their belief 
system.
    The real issue is the moderates, Arab Muslims for the most 
part, have to reject these extremists, reject them the same way 
that the Sunnis did in Iraq, which is the first time that has 
ever happened. And to get that kind of rejection, we have to 
assist them in helping with the conditions that exist in their 
countries, and that is not easy.
    This is what you were talking about in terms of soft power. 
This is using all the elements of national power--political, 
economic, diplomatic, cultural, education--all of those 
elements of national power to assist us. And in this case, one 
of the least useful tools is the application of force.
    Now, listen. As a military practitioner, we have to hold 
their horrific behavior liable. When they kill 3,000 of our 
citizens or they blow up embassies and ships and buildings, we 
have to hold that behavior liable. And when we have the 
opportunity to defeat that kind of behavior using force, we 
should.
    But it still leaves the pregnant issue on the table, so to 
speak, of the moderate Islamists, and they have to reject the 
extremists if we are going to achieve a strategic victory in 
the long run. So fashioned into the ideological struggle 
against them has got to be our own use of all the elements of 
national power, as I think you were suggesting. And it is 
crucial to success against this ideological struggle, at least.
    Mr. Ortiz. Another problem that I have been seeing recently 
is that Central and South America, just recently, Russia 
deployed two bombers to Venezuela in preparation for a joint 
training exercise, which included a Russian naval squadron that 
set off from Russia to Venezuela.
    Now what should we do? We know--and in my opinion, we have 
not done enough, either any type of exercises that I know of 
militarily. And we know that, just recently, they kicked our 
ambassadors out of two or three countries in Central America.
    Is this something that we should worry about, what is 
happening there, this training with the Russians right in our 
back yard?
    General Keane. Yes. I think, when I look at Central and 
South America, there have been different kinds of governments 
that have been coming and going there, on the left, on the 
right, but most all of those countries, with the exception--all 
of those countries, with the exception of Venezuela and Cuba, 
we have very good relations with. And quite frankly, Venezuela 
is a pariah in that part of the world.
    There is sort of an entente that is formed among Russia, 
Venezuela, Iran, China, and the Sudan, and so how much do we 
need to worry about that? I think we should understand it. They 
have what they believe to be a common adversarial relationship, 
probably, in the United States, and I think it is something 
that deserves our looking at.
    But at the same timeframe, I think Chavez and--the more he 
opens that mouth of his and the more he keeps putting his foot 
in it in his own country, and certainly in full view of the 
other countries in that area, he is his own worst enemy. And we 
could give him too much credence by worrying about him too 
much, all right, in my view, and putting an unnecessary 
spotlight on him.
    But it does--this sort of odd relationship that these 
countries have with each other for mutual interests, that does 
deserve some work. It deserves our intelligence agency 
certainly, looking at this and understanding it and probing it 
to make sure we truly know what is going on there.
    Dr. Snyder. Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    And thank you, General, for joining us again.
    You came before our subcommittee, and it was one of the 
more exciting and interesting hearings that we have had. And 
you were a big part of making that happen.
    Had a couple different thoughts, and so I thought I would 
just run them by, and then you can tick them off, if you can 
deal with them quickly.
    The first is, as a statement of foreign policy, I was 
struck by what the President put in one of his speeches a 
number of years ago, that our foreign policy should be to 
export freedom. Now I know that could be defined and understood 
in somewhat different ways. But as an overarching grand 
strategy, I thought that seemed like a good way to say it, 
because what you are saying is, as you export freedom, it helps 
our country as well, and it also takes away the safe havens for 
people that are a lot of troublemakers.
    So first, that would be the first question. What do you 
think about that?
    Then, the second thing is, is what is the possibility--
because I have sensed here in Congress, on Armed Services 
Committee, at least, a pretty bipartisan agreement that we need 
to take the Goldwater-Nichols to the next step, beyond just 
creating one Department of Defense, and create a more seamless, 
if you will, front for America in terms of our State 
Department, Commerce, Justice, along with Department of 
Defense, so we are really combining those tools, as you have 
mentioned.
    What do you think our actual practical chance of doing 
that, because some of it starts right here in Congress with our 
stovepipes between committees? You have been around a while. 
What is the probability of us being able to improve in that 
area, second question?
    Third question, just out of historic curiosity but of great 
interest, and that is are you aware of our struggle with 
radical Islamic in the early days? That is, George Washington 
and Adams, the fact that, in the Washington Administration, we 
had six of these city-state Barbary pirates in North Africa, 
and that we had to bribe them to keep them from enslaving our 
crews and stealing all of our merchant ships and their cargos.
    And that bribe at the end of the Washington Administration 
was about 20 percent of the overall federal budget. And Adams 
said, ``Well, maybe we need to lay the keel of the Constitution 
and the Constellation,'' but he said, ``We do not want to get 
in a war with these city-states because the American public has 
no stomach for a long and protracted war with Islamic 
country.'' Sort of interesting. Just did not know if you knew 
that.
    And then, the very last--well, I will leave those three 
questions on the table.
    General Keane. The Goldwater-Nichols certainly has had 
profound impact on the Defense Department, and largely 
successful in changing the culture of the United States 
military, make no mistake about it. And I do think, along with 
a lot of other people who have looked at this, and some 
considerably more than I have, that it is time for us to apply 
that at least to the rest of the national security team, 
because the inter-agency effort that we are currently using, we 
designed that at post-World War II, and I think it served us 
well during the Cold War.
    But in terms of the 21st century and the kinds of 
challenges that we are having, the multifaceted nature of them, 
the complexity of them, the global information grid, our 
interdependency in the world today, that the speed at which 
decisions have to be made because information is shared so 
rapidly in the world today, that that structure does not serve 
us well. And we have seen it, painfully, these last eight years 
up close.
    And I think just as the United States military, which I was 
a part of, was incapable, itself, of making the cultural change 
that was so necessary to improve itself, this structure I do 
not believe is capable of making that change itself. I do not 
believe an Administration, by itself, is capable of making this 
change. And so this body could really make a contribution here 
in taking us to the 21st century national security apparatus 
that we need to cope with the problems that we have.
    Your first question dealing with----
    Mr. Akin [continuing]. So, your point was you said the 
Administration by itself cannot. You are saying you think that 
Congress, working with the Administration, could do that.
    General Keane. Right. What I am saying--the Congress would 
have to be the catalyst for it as an outside body, independent 
of it, just as Goldwater-Nichols did looking at it, and 
starting here with you members, because you have significant 
knowledge, and there is other committees here that do, to move 
in that direction.
    And I know there has been a lot of thought given about it, 
but I think it is time probably for some action. And with a new 
Administration coming, be Democrat or Republican, there is the 
opportunity to start.
    In terms of freedom as a grand strategy, certainly who is 
not for freedom? I mean, it is--but I think it is more a 
byproduct of a strategy than the strategy itself. And the 
reason is is that, in my mind, freedom is about people and 
countries moving toward it.
    And when you have it as a national strategy, as you 
suggest, I think it implies that we are going to move them 
toward it, that you get the connotation that we may, even 
though we probably will qualify and not say that, that we are 
going to impose it. And that is not what the United States is 
about, as we all know. So I always would draw back from 
something like that.
    On your third question--I know we are out of time--you just 
gave me a history lesson. I did not know anything about what 
you were just talking about, the introduction of radical 
Islamists in the Revolutionary War.
    Dr. Snyder. Mr. Taylor for five minutes.
    Mr. Akin. The Marine Corps hymn has ``The Shores of 
Tripoli.'' That is where that came from.
    General Keane. Okay.
    Dr. Snyder. Mr. Taylor for five minutes.
    Mr. Taylor. By the way, General, I know you are a busy man, 
but former secretary of the Navy Lehman wrote a book called On 
The Seas Of Glory, which does a pretty good job of walking you 
through the Barbary pirates.
    General, I am curious. What do you think the chances are 
that the Pakistani government in the next two years is taken 
over by radical Islamists? And if that is the case, given that 
it is about a 10- to 14-day drive through Pakistan to resupply 
our troops in Afghanistan, what do you do then?
    General Keane. Well, that is a great question, and we were 
talking about it earlier.
    I do not think the radical Islamists have the capacity in 
Pakistan to take the country over. They certainly do not have 
the popular support. Witness some of the challenges they have 
had in political elections.
    It is going to take us a while to understand, about this 
new government, what kind of character does it have in dealing 
with the problems inside its country and, also, with 
Afghanistan and the long-term challenges they have had with 
India, so we will have to let that play out.
    But I am not concerned at the--I have never bought the 
argument that the United States' interest in Pakistan, 
particularly in going after the al Qaeda, would provoke an 
implosion in Pakistan that would result in the overthrow of the 
country by the radicals, and therefore they have nuclear 
weapons. I do not see that happening.
    But I do see a continued potential malaise in Pakistan and 
not much of an improvement as a possibility. And I do not know 
that for a fact. I certainly do not want that to happen.
    I want a good relationship with this government, one where 
we could move the ball a little bit in improving the Pakistani 
military to actually conduct counter-insurgency operations, 
assist them with those skills, and also I think, as a result of 
the actions we will take and others in the region, convince 
them in a way that we were never able to convince Musharraf 
that we have genuine national interest in Afghanistan and we 
are going to stick with it to the end. Therefore, you do not 
have to hedge your bet against us and work both sides of this, 
which Musharraf did for five years.
    Mr. Taylor. General, again as a--and I deeply respect your 
service to our Nation--how would you define the end game in 
Afghanistan? Because I know the typical Afghan refers to Karzai 
as the American Bull. I do not see that changing. I do not see 
a strong central government coming of this.
    So other than that, how would you define the end game in 
Afghanistan? What do you think our goals should be?
    General Keane. Well, I do not have largely ambitious goals 
about Afghanistan. I think we have to be very realistic about 
it. I mean, this is a very poor country, highly uneducated. 
Their major source of revenue is opium trade business. Be quite 
frank about it, 30 years from now, this will be a very poor 
country, highly uneducated, with an opium trade business, and I 
think we should be realistic about that.
    In the same light, we do not want the radical Islamists in 
charge of that country. And in the same light, we should be 
willing to accept a form of government there that is quasi-
elected by its people, that is aligned with the United States 
where we have common interest with them in the region. And we 
are trying to improve the situation politically, economically, 
culturally, and education-wise.
    So I do not believe we are going to create strong central 
government in Afghanistan, and I do not think we are going to 
dramatically change those other conditions very much. But this 
much we can do: We can assist them to have a capable military, 
as we have done in Iraq, and we have to put more numbers on it 
and more resources and do it quicker. And we have done this in 
Iraq, and it can be done.
    And we have to drive the threat and the enemy in the 
Taliban out of that country or at least get them to the point 
where they know that they cannot achieve their political 
objectives using armed violence. And that is very doable. And 
we know how to do that. We need cooperation with the Pakistanis 
to do that.
    So I do not have lofty goals about Afghanistan, but the one 
thing we can do is prevent the Taliban from regaining power and 
attempt to stabilize that country. And albeit it will have 
those other conditions that we talked about that will still be 
there.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, General.
    The Chairman [presiding]. Thank you.
    Gentleman from California, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    And incidentally, Mr. Chairman, thank you for just driving 
through the Defense Bill and exercising great leadership to get 
a bill that we thought was in some doubt now to the House floor 
and wrapped and tied and ready for everything finishing up with 
the vote here, hopefully in an hour or two. Great work, Ike, on 
that bill.
    General Keane, I agree with you with respect to the metrics 
with which we measure success in Afghanistan, in that I am 
reminded we want to fight corruption, which we do, in the 
Afghanistan government. On the other hand, we have fought 
corruption in the Tijuana police force for now about 100 years, 
and we have not--our wonderful next-door neighbor still has 
problems in that respect, and they still have problems with 
respect to the drug trade. And by the same token, we are going 
to have that problem for a long time in Afghanistan.
    So I think we need to re-look at our mission there or 
remained focused on that mission. And you have, I think, 
correctly placed it at preventing a re-emergence of a 
terrorist-dominated state. And in that respect, are not we 
really looking at the need to have, essentially, a containment 
strategy, if you will, that is not within Afghanistan?
    That means we dampen and we suppress the attempt by the 
terrorists to re-emerge, but with all of the real-world 
understandings that we are going to have lots of cross-
political currents on the other side of that border in Pakistan 
and that we cannot predict that Pakistan is going to ever 
become an extremely strong ally in handling that border region.
    And as a result of that, I think that one thing we do need 
to do right now, and I have told the secretary of defense this, 
is to establish an Intelligence Surveillance and Reconnaissance 
(ISR) curtain across that border strip area where you have 
fairly major channels because of that mountainous terrain, 
which does lend itself to a strong surveillance capability.
    And as I look at our surveillance assets across the board, 
unmanned aerial vehicles (UAVs) and manned capability and other 
capabilities, we are not focusing in that, in my estimation, as 
strongly as we could on that border strip region. And I think 
we also need to get that operational digital network (ODIN) 
capability that we have developed and used in Iraq, in terms of 
surveilling the roads and using platforms to take out those 
that are in-placing roadside bombs.
    Look at the casualty rates in the Marine battalions that 
are operating in the south. They are substantial. And a number 
of those now are coming from roadside bombs, which indicates to 
me that we need to have an ODIN capability there to get those 
bomb in-placers.
    So just those two questions. I know they are pretty 
focused. And I apologize for not being here while you were 
giving the rest of your discussion, but I would like you to 
discuss your thoughts a little bit about Georgia and Russia and 
the United States, too, if you have got a second on that.
    General Keane. Congratulations on passing the Defense 
Authorization Bill. That is wonderful.
    Certainly, I think Georgia and what the Russians are 
attempting to do has got to give us a lot of concern, 
obviously. When you look back on the 1990's, I think we, if we 
are honest with ourselves about this, I think we helped to 
create some of this problem that Putin has in a sense that they 
suffered a very humiliating defeat in the Cold War, and we sort 
of rubbed their noses in it a little bit. And the Russians are 
a proud people, and they got shoved off the world stage 
summarily.
    And not too surprising, a tough guy like Putin ascends to 
power, and he has got about an 80 percent approval rating. And 
he has that approval rating because he is returning Russia's 
sense of pride in themselves by putting them on a world stage 
and flexing his muscles a little bit, flying a bomber here or 
there. I mean, the military in Russia is in horrible conditions 
and certainly is no threat to us.
    But I think he has a greater plan for Russia, and he has 
ambitions that surround it. And he wants them to play a much 
larger role in the world, and I think he wants to reach out to 
some of the countries that are now on his border and make 
certain that he has control and influence of those countries.
    And this was a test of that. I think he strongly resents 
the movement of some of these countries into NATO, and 
certainly Georgia would be one of them. The Ukraine certainly 
would be another one.
    I think the former nation-states moving to NATO that had 
strong nation identity prior to World War II, like a 
Czechoslovakia or Poland, et cetera, he had considerably less 
problems with. But those other nations that have been 
contiguous to Russia and have cultural identification with 
Russia I think he has lots of problems with.
    And so this is an issue, and it is out there in front of 
us. And I think we have got to, one, start to understand the 
significance of it, that he has already changed the 
relationship between Russia and Europe and, in a sense, the 
United States, as well, under the guise that he was doing it to 
put down resistance, and that is a bold-faced lie.
    And I think we have got to bring Putin into real clarity 
here. I think what he did was more about thuggery, and we have 
to realize what we are dealing with in Putin.
    So we have to be informed by this. I think we have to take 
a strong stand, recognize that there is some ambitious goals 
here, that this is maybe a beginning and not an end, that the 
Europeans, who have a tendency to be weak on this, who will 
want to turn their head on this--40 percent dependency on 
Russian oil and gas resources are an issue. We have to exercise 
some leadership here, and we have to bring them with us in 
dealing with this.
    And if pride is a part of this, which I believe it is--
money and economics is the other part of it, to be sure--then 
Russia's position on the world stage is a vulnerability to them 
because they want it so badly. And in the organizations that 
give them that world stage, we can put them at liability with 
that, and we should start that effort, politically and 
diplomatically, to isolate them for this kind of action and 
hold them liable in those organizations and, if necessary, 
eliminate them from those organizations as a consequence of 
their behavior.
    So we have to see it for what it is. It is not just an 
isolated issue. It is part of a larger picture, a grander 
scheme that the Russians have. It is not in our interest. It is 
not in the European interests. And the longer we put off 
dealing with it, the tougher the problem will be.
    Mr. Hunter. Okay. Thank you, Mr. Chairman.
    Just one last fast question. Do you agree that we need to 
establish a surveillance curtain over the Pakistan border?
    General Keane. Well, Congressman Hunter, I agree with that, 
and I--but much more, I think what we will find ourselves 
doing--I mean, the Afghanistan situation has been a secondary 
effort because of the magnitude of what we were dealing with in 
Iraq. And now that Iraq is stabilizing, we will begin to 
transition our forces to Afghanistan, not just ground forces, 
but special operation forces and intelligence platforms and 
capabilities that you are talking about.
    And we will start to get a center of mass with these 
forces. They do not need to be at the numbers that we had them 
in Iraq, to be sure, but the capabilities representative of all 
those forces that we have never had that kind of mass there 
will start to really make a difference.
    And I think we will see that playing out in front of us 
through 2009, as we transition forces and capabilities from 
Iraq to Afghanistan. And that, as you are suggesting, is a part 
of it, but there is more that we are going to be able to do, as 
well.
    The Chairman. Thank the gentleman.
    The gentleman from Tennessee, Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Thank you, General Keane, both for your active duty service 
and for your remarkable service as a retired general. I have 
just been reading Bob Woodward's book, The War Within, and if 
you have any general comments about the accuracy or lack 
thereof, I was particularly impressed by his alleged account of 
your private briefing of Secretary Rumsfeld on the need for 
change in strategy.
    General Keane. I would prefer not to get involved in Robert 
Woodward's book, if I may, and stick to the purpose of the 
testimony.
    Mr. Cooper. Well, if I may ask a more general question, how 
do you feel about circumventing the chain of command? Is that 
appropriate military policy? Is that good for the services? Is 
that the right way to run wars?
    General Keane. Are we talking about--is this in reference 
to Iraq?
    Mr. Cooper. Yes.
    General Keane. Circumventing the chain--who is 
circumventing the chain of command?
    Mr. Cooper. Well, at least according to the front page of 
The Washington Post in a series of articles that were 
serialized----
    General Keane. Oh, okay. I understand. I am missing the 
point.
    Mr. Cooper. Yes.
    General Keane. Well, my own view of that--I think a 
President takes advice wherever he wants to get it from. I 
walked into the White House with two other generals and two 
people from a think tank, and certainly I was asked to come, 
and I dutifully came. And some of what I said to them appeared 
to resonate, so they continued to seek that advice, and I was 
certainly honored to provide it, frankly.
    And General Petraeus wanted some help as a mentor in Iraq, 
and I was honored to provide him with that help. And I think 
people make much more out of this than what it was, and I have 
always felt that, and it is what it is.
    Mr. Cooper. Well, do we need to be worried that, as an 
institution, perhaps we cannot just rely on the Joint Chiefs of 
Staff or the services, and that we need to have multiple 
conduits for information so that the Commander-in-Chief can get 
the best advice?
    I keep on asking myself how you would have reacted when you 
were on active duty if a retiree had played the significant 
role that you apparently played in the last several years.
    General Keane. Well, I think that question probably would 
be better suited to ask the Administration. I think how they 
get information is a decision that they made.
    And I think a President--it is probably healthy for a 
President to get information from multiple sources, 
particularly concerning something as important as a war and 
multiple opinions, viewpoints on what is going on. There are 
lots of people who are in and out of the White House who have 
visited Iraq and were giving their opinions about the war, and 
certainly I was one of them, as well.
    But I do not necessarily see that as a bad thing. I, 
frankly, think that is probably healthy for most 
Administrations to seek multiple viewpoints on what is taking 
place, and I do not think the chain of command needs to be 
threatened by it, whether it is in the State Department or the 
Department of Defense or another agency of government.
    I think they have their viewpoints, and they have a right 
to make them. The President has a right to take those 
viewpoints from multiple sources and make decisions based on 
them. I, frankly, see it as a healthy thing, not necessarily a 
negative thing.
    Mr. Cooper. Thanks to Chairman Skelton, he allowed me to 
chair a panel on roles and missions, studying future ways for 
the Pentagon to be organized. Do we need to be concerned about 
an atrophying or an arteriosclerosis of the current arrangement 
of the services and the Joint Chiefs?
    General Keane. In the post-Goldwater Nichols, I mean, as I 
said before, I think Goldwater-Nichols clearly made a dramatic 
improvement in the culture of the United States military, and 
the military is better for it. And we were not capable of 
making those changes ourselves.
    We were trying to move in that direction, but I think the 
Congress, rightfully so, got frustrated with us and moved the 
ball a lot faster. And therefore, we are better for it.
    The next thing that has to be done, I believe, is the 
national security team apparatus, which was designed for us 
post-World War II and I think served us pretty well during the 
Cold War but appears inadequate for the 21st century and this 
complexity of problems and the speed of decision-making dealing 
with the global information grid. It just does not measure up 
to it.
    I do not know what the answer is myself, but I think this 
body, working with a future Administration that we are going to 
have here in January, can offer a lot in terms of improving 
that structure.
    In terms of the military side, I think a consequence of 
Goldwater-Nichols, an unintended consequence of Goldwater-
Nichols I think that could be re-looked is the Joint Chiefs of 
Staff. The Joint Chiefs of Staff are certainly, by law, 
accountable to the organization, training, and equipping of 
their service. And that is largely their responsibility, and 
they are held accountable for that by law, by statute.
    But when we move the Joint Chiefs from a direct role in 
advising a President, de facto they took a subordinate role to 
operational oversight in the joint arena. And I do not think 
that was necessarily intended consequence. I think it was a 
desire to fix responsibility for the chairman as the principal 
military advisor to the President, not necessarily that the 
Chiefs would not be, but that is how it is evolved over time.
    And they are held accountable, by law, for their services, 
and there is no accountability in terms of operational 
oversight of a war. And I think it is something we could take a 
look at, and it has nothing to do with the people who are in 
the positions. It has all to do with what their 
responsibilities are, and the unintended consequence may be of 
that.
    I mean, I applaud Goldwater-Nichols. Do not misunderstand. 
We are all better for it. But that may be something that is 
worth taking a look at.
    Mr. Cooper. Thank you. Excellent suggestion.
    I see my time has expired, Mr. Chairman. Thank you.
    The Chairman. I was there at the birth of Goldwater-Nichols 
and all four years of its gestation.
    The Joint Chiefs of Staff situation is really what caused 
all of it. David Jones, Air Force Chief of Staff, later 
chairman of the Joint Chiefs of Staff, went public, saying that 
the advice the Joint Chiefs of Staff gives is pablum. It is 
watered down to the least common denominator.
    And Richard White of Texas had a series of hearings on this 
issue, assisted by the very able staff member by the name of 
Arch Barrett, and then he retired. And I picked up that 
gauntlet and introduced legislation. General, you would be 
pleased to know that I abolished the Joint Chiefs of Staff in 
my legislation of 1983 and, needless to say, none of the Joint 
Chiefs of Staff had a sense of humor at the time.
    But over a period of four years, the House passed three 
measures. The first two were killed in the Senate by John 
Tower, then the chairman. And then, when Barry Goldwater became 
chairman and Sam Nunn the ranking, they developed their own, 
and we went to conference. And it came out something that 
actually worked.
    The folks in the Pentagon, with rare exception, were 
adamant against this. Several of us had a breakfast with the 
chairman of the Joint Chiefs of Staff at the time, and it 
bordered on being bitter right before we passed it in the House 
for the final time.
    But I am thrilled to hear you say that it works, and thanks 
for your comment on the Joint Chiefs, per se, as you have, and 
might take a good look for us to--might be a good thing for us 
to take a good look at it. But most members here--Duncan was 
here and I was here, and time moves on, and most folks were not 
here at the passage of Goldwater-Nichols.
    And it did pass. It changed the culture of the military, 
and I think that was a good thing, and I am pleased to hear you 
say that.
    General, on a different note, I have been concerned over 
the need for a national security strategy looking back to the 
era of Harry Truman with his fantastic advisors, and President 
Truman developed the Truman Doctrine--that is, the doctrine of 
containment. But there was just one major enemy at the time--
Communism, the Soviet Union, China, other Communist states.
    And in some respect, I suppose it was a simpler time, 
although at the time no one saw it as such. Today, the 
potential threats are diverse. On the one hand, you have the 
Islamic extremists; on the other hand, the potential of state-
on-state threats.
    And the question is, how does one devise a national 
strategy to fit today as the Truman Doctrine did in the late 
1940's--which, by the way, was adopted after considerable 
review by President Eisenhower when he took office in 1953. How 
would you advise a new Administration, a new Congress, and the 
American people on the strategy that we need from here on out 
regarding the national security of our country?
    General Keane. Yes.
    Well, as I said previously--and you were not here, but I 
would be more than happy to present it--is that I also agree 
that the containment strategy that we had during World War II 
was very useful. It was practical. It transcended 
Administrations.
    Different administrations would argue over methods and 
means, but the strategy, that overarching strategy of 
containment of Communism, stayed in place. And we even fought 
two wars on that basis, one in Korea to contain Communism, one 
in Vietnam, and it served us very well.
    But I think you have already touched on it. We are very 
challenged here. We do not have a monolithic enemy as we had 
then.
    So it is very hard to find an overarching strategy which 
would also be able to define our response, because containment 
in the strategy was also our response. And that is what led to 
its utility, in my view.
    Given the complexities that we have without a monolithic 
threat, certainly we can conceptualize an overarching strategy. 
But to get everything underneath that tent, by definition it 
would not define our response. We would have to have, then, 
various components of that strategy that would deal with what 
is our response to nuclear proliferation.
    What is our response to the ideological struggle with 
radical Islam? What is our response, as Congressman Hunter 
mentioned, to the emergence of Russia and what they are 
attempting to do and, certainly, our position and relationship 
with India and China?
    So I think that any strategy that we fashion, it will be 
unfair to compare it to that period where containment fit so 
well with that monolithic threat that we had where, in the 
strategy itself, it also defined a response to that threat. 
That is, from a practical perspective, I think, impossible with 
an overarching strategy.
    We can certainly conceptualize, in general terms, what a 
strategy would be. But Speedy Martin, who I was with the other 
day on a panel, suggested global collective security.
    So let us take Speedy's. If global collective security--he 
is a retired four-star Air Force--was, in fact, our overarching 
strategy, for want of another one, you would have to come up 
with the components of what that really means, and that would 
really be the essence of what you are doing because, in the 
components, would be your priorities and the choices that are 
associated with those priorities, which would be the essence of 
it.
    And we certainly should have one. I am not suggesting we do 
not. But I think it will be unrealistic to be able to have one 
like we did during the Cold War and meet those kinds of 
expectations, given the complexities we face today and a lack 
of a monolithic threat.
    The Chairman. I thank you for that.
    I have one question. Are you familiar with the new Army 
field manual that was just developed? Are you?
    General Keane. I read it. You are talking about their 
operations manual?
    The Chairman. Yes, sir, that is correct, which I had an 
excellent briefing on it by General Caldwell a good number of 
weeks ago. It seems to cover the waterfront, on the one hand 
fighting insurgents, guerrillas, and on the other a force-on-
force, and it seems like it is very broad.
    Do you have any comments, since you have actually read it? 
Yes, this really touches on, in a mini way, a strategy for our 
country.
    General Keane. Well, I actually was pleasantly surprised by 
it for this reason: the Army that I was a part of and been in 
support of since I retired in 2003, we have been, by and large, 
preoccupied with ensuring that we had the best conventional 
capability we could in terms of major combat operations.
    And remember, we made a decision that turned out to be 
flawed, and that decision was that we would be ready for high-
end warfare. And if low-end warfare came, then we would use a 
pick-up team, so to speak, to do that. In other words, we would 
take the high-end forces and transition them to fight the low-
end war. Therefore, we would use the high-end organization, and 
we could learn that low-end war while we were conducting that 
war.
    That turned out to be a flawed decision, and that came home 
to roost for us after the Saddam Hussein invasion, when we 
found out that he was not surrendering. His regime was trying 
to take power back using unconventional, irregular warfare, a 
form of war that we were not prepared for, and we had to learn 
on the run, so to speak. We should not repeat that mistake.
    So this manual, one of the things that I am attracted about 
it, it begins to balance our ground forces for the first time, 
that they would maintain high-end conventional operational 
skills, but also maintain low-end operational skills.
    So what does that really mean? That means that something 
you are very familiar with in the Army education system, from 
lieutenant to captain, at Command Staff College and in War 
College, then both of those major areas would be addressed so 
that the officers, and also the non-commissioned officers, in 
their education system, would have the requisite skills.
    Also, it means, when they make organizational equipment 
choices, they have to make those choices based on the 
operational capabilities as desired in that manual. And that is 
really where the tough decisions will be in making those 
choices, so that the Army is more balanced than what it has 
been in the past to do both.
    And that is the major point that I took out of that 
operational manual and the Army moving in that direction. Now, 
that is just a manual. The decisions that are forthcoming and 
programs that they are providing to you in the form of a 
budget, and to the Defense Department in terms of a five-year 
program, is where the rubber meets the road, in terms of the 
tough decisions that have to be made about those choices.
    The Chairman. General, thank you very, very much for being 
with us. Unless there is further question, we have a----
    Mr. Bartlett. (OFF MIKE)
    The Chairman. Yes.
    Mr. Bartlett. If I might make just one quick observation, 
you noted, in their present state, Russia is no threat to us. 
For conventional warfare, that is true.
    Just wanted to note something that happened a few years ago 
that gives me considerable pause. I and eight other 
congresspersons were in Vienna, Austria. Three Russians were 
there. One of them was Vladimir Lukin, who was the ambassador 
at the end of Clinton and beginning of Bush I and a personal 
representative of Slobodan Milosevic. This was just before the 
resolution of the Kosovo conflict.
    Vladimir Lukin was very angry. He sat in that hotel room in 
Vienna, Austria with his arms crossed, looking at the ceiling 
for three days. He said at one point, ``Why should we help you? 
You spit on us.''
    And then, later he said this: ``If we really wanted to hurt 
you with no fear of retaliation, we would launch an submarine 
launched ballistic missile (SLBM). We would detonate a nuclear 
weapon high above your country and shut down your power grid 
and your communications for six months or so.''
    The third-ranking Communist was there, Alexander Shabanov. 
He smiled and said, ``And if one weapon would not do it, we 
have some spares, like about 10,000, I think.'' This gave me 
considerable pause, which is why I am so concerned about EMP 
and the fact that we are really not mobilized to address that 
enormous asymmetrical threat.
    Thank you, sir. You are right. They are no threat for us 
conventionally, but with this non-conventional thing, they 
could just end life as we know it, and we do not have an 
appropriate response either in our military or in our civilian 
infrastructure.
    Thank you, Mr. Chairman, very much.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thanks, Mr. Chairman, and I know we are going 
off to vote on our bill.
    But just one word, General, and to my colleagues, just to 
address the notion that somehow it is outside the chain of 
command to have retired military leaders give advice to the 
Administration. That witness table has been filled, over my 
last 28 years, with retired military leaders who have been an 
enormous resource to this country.
    And I found myself looking forward to the attendance of not 
only those folks that agreed with some of the things that I 
believed, but the folks who adamantly opposed Administration 
policy and the policies of this Armed Services Committee, 
because it was instructive to listen to the criticism. Mr. 
Chairman, this pool of retired officers is an enormous resource 
for this country.
    And last, the Joint Chiefs are advisors to the President. 
They are not the chain of command. The chain of command runs 
from the President to one person in the Pentagon, and that is 
the Secretary of Defense, and then to the combatant commanders. 
And the idea that a President should foreclose himself to any 
voices other than a few who have been appointed to be the 
advisors means that we should have a confined chain of advice, 
and I think that would be very detrimental to the country.
    So, General, whether you are right or wrong on the many, 
many issues that you have come and commented on for not only 
the legislative body but the executive body, thanks for that 
service. And I think you and your colleagues have provided us 
an enormous service when we entered these heretofore unknown 
waters in Iraq, as we made this change from taking Iraq to 
trying to make that occupational meaningful and effective. That 
transition period was very difficult, and it was one that 
required a lot of advice and a lot of wisdom, and I think we 
finally got it right as a result of that.
    So thanks for your service, and I hope it continues.
    Thank you, Mr. Chairman.
    The Chairman. General, thank you so much for appearing 
today. I am sorry that several of us had to be absent. We did 
take the bill up on the floor. We are going to have a formal 
vote here shortly. And thank you for your past service and your 
present service and your testimony today.
    Thank you again.
    [Whereupon, at 11:59 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
